H

f

Supreme Court
of the United States
X
:

Petition for a Writ of Certiorari
to NYS Court of Appeals

Gerald Aranoff.
Suprerm Court, U.s.
FILED

Petitioner
■against

°S2eofthecleRK
Susan Aranoff.
Respondent

:

X
State of Israel
Tel-Aviv

SS:

Gerald Aranoff. being duly sworn, deposes and says:

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoffOnetvision.net.il

n
Questions Presented
The questions presented:
Can an elderly USA citizen living in Israel continuously since July 9, 1991 except for 1
week August 1992, appeal to the United States Supreme Court to overturn a NYS court
order QDRO?
Can an elderly USA citizen living in Israel prove deliberate fraud of NYS judges/clerks?
Can an elderly USA citizen living in Israel, remarried, appeal to the United States
Supreme Court to annul Judge Prus signed NYS civil divorce 9/10/2013?

n

o

List of Parties
All parties appear in the caption of the case on the cover page.
Susan Aranoff, Respondent
498 East 18 Street, Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranofF@gmail.com;

0
r

Gerald Aranoff, Petitioner
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvi.sion .net.il

L

/

\

)

Contents
1

Opinions Below

1

2

Statement of the Case

3

3

Reasons for Granting the Petition

8

4 Conclusion
5

List of Appendices

9

10

n

(

1

i

Opinions Below
1. See Appendix A
State of New York
Court of Appeals
Decided and Entered on the
first day of April. 2021
Present. Hon. Janet DiFiore, Chief judge, presiding
Mo. No. 2021-54
Susan Aranoff,
Respondent,
v.
Gerald Aranoff,
Appellant.
Appellant having moved for leave to appeal to the Court of Appeals and for
poor person relief in the above cause:
Upon the papers filed and due deliberation, it is
ORDERED, that the Motion as it seeks leave to appeal from the June 25.
2014
Appellate Division order, dismissed upon the ground that it does not lie, appellant
having previously moved in the Court of Appeals for leave to appeal (24 NY3d
934 [2014]) from the same Appellate Division order from which he currently seeks
leave to appeal (see Selinger v Selinger, 90 NY2d 842 [1997]): and it is further
ORDERED, that the motion is otherwise dismissed upon the ground that
the remaining order sought to be appealed from does not finally determine the
action within the meaning of the Constitution; and it is further
ORDERED, that the motion for poor person relief dismissed as academic.

John P. Asiello
Clerk of the court
2. See Appendix B
Aranoff v Aranoff
Motion No: 2013-09429
Slip Opinion No: 2014 NY Slip Op 76248(U)
Decided on June 25, 2014
Appellate Division, Second Department, Motion Decision
Published by New York State Law Reporting Bureau pursuant to Judiciary Law
§431
This motion is uncorrected and is not subject to publication m the Official
Reports.

r

r

a

2

Supreme Court of the State of New York
Appellate Division: Second Judicial Department
Ml 76225
E/ct
RUTH C. BALKIN, J.P.
THOMAS A. DICKERSON
JOHN M. LEVENTHAL
SHERI S. ROMAN, JJ.

2013-09429, 2013-10416
2013-10418, 2013-11465
Susan Aranoff, respondent, v Gerald Aranoff, appellant (Index No 54688/12)
DECISION & ORDER ON MOTION
Motion by the appellant pro se for leave to reargue so much of his prior motion
which was for leave to appeal to this Court from an order of the Supreme Court,
Kings Countj^, dated June 25, 2013, and a judgment of the same court dated
September 10, 2013, which was determined by decision and order on motion of
this Court dated April 3, 2014, and for poor person relief with respect to the
appeals fiom that order and that judgment, as well as with respect to appeals
from two orders of the same court dated October 1, 2013, and October 15, 2013.
respectively.
Upon the papers filed in support of the motion and the papers filed in opposition
thereto, it is
ORDERED that the motion is denied.
BALKIN, J.P., DICKERSON, LEVENTHAL and ROMAN, JJ ., concur.
ENTER:
Aprilanne Agostino
Clerk of the Court

ru

o
2

3

Statement of the Case

1. I request permission to make this petition. I’m acting pro se. I request the Court
to combine this petition with my docket numbers 18-7160, 18-9390, and 20-6525.
I request the Court to accept my papers without notarization since, in Israel, a
US citizen can only get court acceptable notarizations from the US embassy by
appointment, and none are available now. I request the Court to accept my papers
on size A4 paper and not letter size since in Israel it’s hard to obtain letter size
paper. 1 request the Court to accept one copy from me since it’s difficult for me
to prepare 10 copies. My dear wife, Yemima,, is retired from her employment
as a clerk at Bank Mizrachi. We were married May 9, 1993, after I divorced
Susan February 17, 1993. We are blessed with 3 daughters: Hadassah, Tamar,
and Sapphire Rivka. Each has a USA social security number. T ask the court to
allow me to report only my income and assets, as Yemima’s income and assets are
not large and not relevant.
2. I seek from the Supreme Court of the United States:
First, for a decision that NYS courts have no more control over the QDRO that
tells TIAA to pay Susan 55% of my pension with no end in sight in violation of
ERISA. Second, to cancel and nullify Judge Prus’ awarding my house to Susan.
Third, to cancel and nullify $25,000 in fines unpaid against me ($10,000 + $10,000
of Rigler/Rothbart and $5,000 of Garson/Rothbart).
3. The Rules of the Court state: 'Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a writ of certiorari will be granted
only for compelling reasons.

I m asking the court to accept my petition on the

grounds of fraud/forgery/etc. Time limits on filing cases based on fraud/forgery etc
are extremely long. Often the police and court officials show no interest in evidence
of crimes of fraud/forgery. An aggrieved party may have to be patient over many
yeais, as I am, for overwhelming evidence to emerge of crimes fraud/forgery.
4. NAS Get Law DRL 253 states:
New York Domestic Relations Law Sec. 253 Removal of Barriers to Re­
marriage l.This section applies only to a marriage solemnized in this
state or in any other jurisdiction by a person specified in subdivision

n

n

4

one of section eleven of this chapter. ... 8.Any person who knowingly
submits a false sworn statement under this section shall be guilty of
making an apparently sworn false statement in the first degree and shall
be punished in accordance with section 210.40 of the penal law. 9.Noth­
ing in this section shall be construed to authorize any court to inquire
into or determine any ecclesiastical or religious issue. The truth of any
statement submitted pursuant to this section shall not be the subject
of any judicial inquiry, except as provided in subdivision eight of this
section.
5. Section 210.40 of the penal law states:
A person is guilty of making an apparently sworn false statement in
the first degree when he commits the crime of making an apparently
sworn false statement in the second degree, and when (a) the written
instrument involved is one for which an oath is required by law, and (b)
the false statement contained therein is made with intent to mislead a
public servant in the performance of his official functions, and (c) such
false statement is material to the action, proceeding or matter involved.
Making an apparently sworn false statement in the first degree is a class
E felony.
6. The Get solemnizes the dissolution (formal end/breakup) of a marriage, man to
woman, performed under Jewish law before witnesses. Once Susan received the
Get I sent her from Israel in Rabbi Aryeh Ralbag’s bet din in Brooklyn, before
witnesses, on 2/17/1993, I became a free man, free to remarry. The ten command­
ments, no adultery, would no longer apply to Susan. Passover is the holiday of
freedom. Susan’s sworn statements that Judge Rigler signed an order of separation
March 1995 are false. I claim that Susan and Myla, Serlin forged the fake/phony
Rigler March 1995 order of separation. Total nonsense Judge Pesce’s statement in
his letter that my children from Yemima are illegitimate because NYS courts did
not recognize the 2/17/1993 Israel divorce.
7. Judge Prus made a knowingly false statement in the August 2013 Inquest that the
Get I sent Susan from Israel in Rabbi Aryeh Ralbag’s bet din in Brooklyn, before
witnesses, on 2/17/1993 was a religious ceremony. Judge Prus refuses to send me
a copy of the fake/phony 1995 Rigler/Rothbart order of separation. Judge Prus
refers to the fake/phonv 1995 Rigler/Rothbart order of separation in his 9/10/2013
NYS civil divorce me and Susan. Judge Prus refuses to allow suspension of TIAA

(

%
5

paying Susan 55% of my pension. I became free of Susan, free to remarry 2/17/1993
because of the Get. Further, Judge Prus’ statement in the 9/10/2013 NYS civil
divorce that his court retains control of the QDRO is a false statement, a 1st
degree perjury, a class E felony, in my opinion. Susan won the house, the $10,000
will money, 55% of my pension from early 1994—there's no good reason to retain
control of the QDRO in Judge Prus’ court.
8. When judges say over and over that everything I say is frivolous, these are false
statement under ^[8. Statements with implication that I don’t deserve poor per­
son relief are also false statements under 1f8. Statements Rigler/Rothbart made
that my wife Yemima whom I married May 9, 1993 has no standing in a QDRO
proceeding are false statements under %8. Statements that I just try to prolong
court proceedings for no good reason are false statements under f[8. Yes I try to
be free of blame in my court papers. My reason: “Then you will find grace and
good sense In the sight of God and man” (Proverbs 3:4).
9. Inquest August 1, 2013 [defendant not present at the proceedings]:
[page 3] THE COURT: What he says here, my main reason is that I al­
ready divorced Susan February 17th, 1993. That was a religious divorce.
MS. SERLIN: It was a religious divorce in Israel without participation
or knowledge of my client. THE COURT: Right. There were no is­
sues involving equitable distribution? MS. SERLIN: There is a marital
residence. That is the one and only issue. The separation agreement
that they entered into, and there is a separation before, gives exclu­
sive possession to my client. THE COURT: What does it say as far
as equitable distribution of that? ... MS. SERLIN: He abandoned the
property in 1991. THE COURT: And you client is seeking the [page 4]
entire property? MS. SERLIN: She has p[aid all the mortgage payments,
all the taxes, all the repairs. She is you honor. THE COURT: Is the
plaintiff collecting any part of the defendant’s pension? MS. SERLIN:
She is. Because he never paid child support. She got a QDRO for the
child support. And they taxed his pension. .. [page 6] THE PLAINTIFF;
Right now, it’s variable. Right now, I’m getting $703.00 a month. THE
COURT: And this case was before Judge Garson? MS. SERLIN: Most
of it was before Judge Rigler. All of these decisions were Judge Rigler.
Judge Gaison was on it for about two months, but it was nothing was
decided, [page 7] MS. SERLIN: He has focused on Judge Garson, obvi­
ously because THE COURT: This was a determination after inquest
or trial or settlement? MS. SERLIN: No. There was an inquest. I have
a transcript of that inquest and which granted her a legal separation

\

6

at that point. THE COURT: So now you’re seeking conversion divorce
based on separation agreement? MS. SERLIN: Correct. THE COURT:
Did he sign a separation agreement? MS. SERLIN: No. There was a
judgment after inquest that he did fight the separation. They had a
trial where he was represented. And Judge Rigler entered a judgment
after a mini trial or hearing. THE COURT: A judgment of what? MS.
SERLIN: a judgment of separation. THE COURT: Could I see that,
please? MS. SERLIN: Sure, (handing up to the Court.) MS. SERLIN:
And I have the transcript here also; in case you wanted to look at it...
10. I came to court August 1992 testifying before Rigler/Rothbart on the advice of Ian
Anderson bearing, a gift (a painting of a street in Jerusalem) for Susan and copies of
22 letters I sent Susan from Israel (I still have them). Ian in 1990 fought Fordham
University for denying me a PhD in economics (Bronx Supreme Court 8538/1990
Judge Alan Saks). Ian 1991-1992, very busy to help me, showed Rigler/Rothbart
letters I wrote to Susan, Rabbi Kornfeld letter to Susan, Deena letter to Susan and
my mother letter to Chavie. I paid Ian some $10,000. The last payment I made
to Ian Anderson was $250 for his showing up November 2001 for a hearing before
Judge Gaison that Susan did not show up. Susan called Larry Rothbart during
the hearing. Larry Rothbart asked Ian Anderson for conference while talking on
the phone with Susan. Larry Rothbart rescheduled the hearing for December 14.
2001. At the December 14, 2001 hearing Judge Garson threw Ian down the stairs.
11. It is sheer improbability that Judge Rigler signed a separation order March 7.
1995.

This is deliberate fraud.

The object to steal my house and my T1AA

pension. Judge Prus, Myla Serlin and Susan expect to get away with their crime
thinking that without a copy of the Rigler 1995 separation agreement I can’t prove
perjury. They want to claim, there is a reasonable doubt, maybe the Rigler 1995
separation agreement is genuine. No, there is no reasonable doubt, to any fair
minded person. All possible explanations, other than deliberate fraud, are absurd.
March 7, 1994 I and my wife Yemima were blessed with our baby, Hadassah now a
mother of a son, thank you God. March 7, 1995 was in the middle of the 1994-1997
100% freeze of my TIAA pension which I was desperately trying to free so I could
pay Susan child support. I repeatedly offered Susan half of my TIAA pension for
child support.
12. It’s an embarrassment to the court the Rigler/Rothbart $20,000 fines and the

(\

o

\

7

Garson/Rothbart $5,000 fines. It’s an embarrassment to the court I’m approaching
76, married to Yemima since 5/9/1993 in Israel and I don’t get my full TIAA
pension. I gave the Get to Susan 2/17/1993. The NYS Get Law recognizes that
when I give the Get and Susan receives the Get before witness before rabbis, Susan
becomes free to remarry under Jewish/rabbinical law.
13. Susan/Serlin claims of amounts I owe are exaggerated. They include 9% interest
on phony balance backdated to when I was still in NY. In Appendix A ‘/see
Selinger v Selinger. 90 NY2d 842 [1997])” the court upheld 9% interest rate which
blows up amounts owed enormously.

This was why Susan getting 55% of my

TIAA pension since early 1994 Susan claims huge amounts I owe her (nonsense).
Selinger v Selinger is not relevant to Aranoff v Aranoff because Selinger v Selinger
is a money dispute while Aranoff v Aranoff is a deliberate fraud case.
14. Rabbi Kornfeld testified in 1991 that Susan was abandoning me in not joining me
in Israel. My mother testified in 1991 that Susan was seeking a NYS civil divorce
and not thinking of the children. Deena testified in 1991 how badly she ■wanted
Susan, her mother, to join me in Israel.
15. NYS courts eTrack View My Cases eTrack Account: Tefillin

1
2
3
4

1
2

3
4

Court
Bronx Supreme Ct
Kings Supreme Ct
Kings Supreme Ct
Kings Supreme Ct
Plain.
Firm
BURTON &
GREENBERG
IRWIN H.HAUT,
ESQ.
POPKIN,ELIZ.
JACKSON
Unknown

Index
Number
8538/1990
23213/1991
46412/1992
54688/2012

Case
Status
Plaintiff
Disposed ARANOFF,GERALD
Disposed ARANOFF,SUSAN
Disposed ARANOFF,SUSAN
Disposed ARANOFF,SUSAN

Defendant
FORDHAM
UNIVERSITY
ARANOFF.GER.

ARANOFF,GER.
ARANOFF,GER.

Def.
Firm

App.
Date
06/15/1990

Gerald
Aranoff

05/14/2007

IAN
ANDERSON

06/21/1995
11/16/2016

Justice
ALAN SAKS
MICHAEL A.
AMBROSIO.
5B
WILLIAM
R.IGLER
Prus, Hon.
Eric I.

16. In Case 1 Aranoff v Fordham University (Fordham University refused to give me
a PhD in economics) I received this week by mail two books published by Book

(

%

o

8

Publisher International 2020 with my articles there.
(a) Insights into Economics and Management Vol 1 Chapter 1 A Numerical Ex­
ample Illustrating Globalization: Focus should be on Supply for the Peaks.
1-9 .
(b) Current Strategies m Economics and Management Vol. 2
i. Chapter 2 A Model of Room Rentals in a Seasonal Hotel Illustrating
Monopolistic Competition: Descriptive Approach, 12-21.
ii. Chapter 3 A Model of Manufacturers and Buyers of Cars Over the Busi­
ness Cycle Illustrating Competitive Manufacturing: Advanced Study, 2232.
iii. Chapter 5 A Numerical Example Illustrating Cost of Idle capacity in
Manufacturing: Advanced Study, 40-46.
iv. Chapter 6 A Mathematical Perspective: Focus during Weekday should be
on Supply for the Sabbath a Support for Workable Competition, 47-55.
17. In Cases 2, 3. and 4 the March 7, 1995 Rigler/Rothbart Separation Order cannot be
explained in any way other than deliberate fraud by Judge Rigler, Larry Rothbart,
Judge Ambrosio and Judge Prus. Larry Rothbart was the clerk for Judge Gerald

i

Garson at the time Judge Garson threw Ian Anderson out of his court for no good

)

reason. Larry Rothbart did the figuring of child support and backdated to when I
was still in NY. Larry Rothbart added a 9% interest to the phony balance. Larry
Rothbart and Judge Rigler froze my TIAA pension 100% early 1994 till late 1997
for no good reason. This was especially mean because I told the court in 1993 that
I want to give half of my pension to Susan for child support. Judge Rigler signed
a QDRO in 1997 to award Susan 100% but TIAA blocked that. Judge Rigler
ordered TIAA to pay Susan $23,000+ January 1998 for no good reason. Judge
Ambrosio did a new QDRO in 2007 for no good reason. Judge Prus ruled to give
Susan 55% of my TIAA pension for no good reason.

3

Reasons for Granting the Petition

The trial and jail sentence of the late Judge Gerald Garson was just the tip of the
iceberg of fraud etc in NYS civil courts. The Court granting me my petition will
help root out fraud in NYS civil courts.

f^

r~'\
9

4

Conclusion

The petition for a writ of certiorari should be granted.

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision. net. il
Sworn this 25t,h day of April 2021.

